Consumer Cardmember Agreement
This Consumer Cardmember Agreement applies to your revolving
credit card account with Pinnacle Bank, Nashville, Tennessee (the
“Account”). The words “we,” “us,” and “our” mean Pinnacle Bank, its
agents, authorized representatives, successors, and assigns. The
words “you” and “your” mean each person (as an individual) and all
persons (as a group) who apply for the Account, who are responsible
for paying the Account, or on whose behalf we issue a credit card or
any other device for Account access (each, a “Card”). An “Authorized
User” is a person any of you authorize or allow to use the Account or a
Card, but who did not apply for the Account and who is not directly
responsible for paying the Account. Other capitalized terms that are
not defined here are generally defined with their first use in the
Agreement or in the Glossary in Section 28.
1.

Your Account Agreement and When It Becomes Effective

Our complete Account agreement with you (the “Agreement”) is
contained in and governed by:
(A) this document, called the Consumer Cardmember Agreement;
(B) all Account disclosures and terms provided to you before we
opened the Account for your use, including the terms we disclosed
when you applied for or accepted the Account, the disclosures we
made in our Account Opening Disclosures, and any terms we provided
in written materials accompanying your Card;
(C) all other documents, disclosures and terms that relate specifically
to your Account and its related features and services, including:
• all rewards disclosures, if your Account has rewards;
• the Card benefits brochure that describes benefits provided by
any payment card network displayed on your Card (each, a
“Payment Card Network”);
• the terms shown on periodic billing statements for your Account
(each, a “Statement”); and
(D) any future changes we make to any of these documents, as
permitted or required by law.
Please read all of these materials carefully and keep them for future
reference. You understand and agree that this Agreement becomes
effective the first time you or any Authorized User activates a Card or
uses the Account in any way. When the Agreement says that we
“may” take an action, this means we are authorized to take that
action in our sole discretion, subject only to the limitations or
requirements that are established by law or by the express terms of
this Agreement. We may make new offers to you in the future or
forward offers from others that may interest you. If these offers have
new or different terms, those terms will be provided with the offer. If
you accept the offer, the previously disclosed terms in the Agreement
will still apply, except as modified by the offer.

2.

Your Promises To Us

You promise to do everything the Agreement requires of you, so long
as your Account has an unpaid balance, remains open to future
transactions, or both. Each of you and all of you promise, individually
and together, to pay us all amounts due on your Account, now and in
the future. This promise applies any time the Account is used by any
of you or by any Authorized User. This promise includes amounts
where you or any Authorized User use the Account or a Card for a
transaction with a merchant or financial institution, but are not
required to sign the purchase slip or other sales transaction
documents. If you or an Authorized User use your Card number
without presenting the Card itself (such as for mail, telephone or
Internet purchases), these transactions will be treated as if you or the
Authorized User used the Card in person. The amounts you promise to
pay in connection with your Account includes all Account transactions
in each Balance Category that are made by any of you and any
Authorized User, plus all Fees and all Interest Charges, as described in
the Agreement.
3.

Required Account Information

We must have complete, current and valid information about you to
provide your Account (including names, addresses; telephone
numbers; dates of birth; employment and income information, Social
Security numbers, or other government identification numbers). We
may also ask you for similar information about any Authorized Users
on your account. You must tell us when this information changes. To
do this, contact us in writing at the address shown on your most
recent Statement, use the appropriate area of any Account web site
we maintain for this purpose, or call us at the customer service
telephone number shown on your most recent Statement or on the
back of your Card. We may require that you provide additional
documents that are acceptable to us so that we can verify this
information and any changes. We may restrict or close your Account,
if we are unable to verify your information or you do not provide the
additional information we request.
4.

Using Your Account and Card

You and your Authorized Users are allowed to use your Card and the
Account to make Purchases and to obtain Cash Advances, Balance
Transfers, and Promotional Offers, as permitted by this Agreement
and applicable law. You agree to sign the Card immediately after you
receive it. The Card is valid through the expiration date shown on the
front. The Card is our property and you agree to return it to us or
destroy it, if we ask. You agree to take reasonable steps to prevent
unauthorized use of your Card and Account. If you allow someone else
to use your Card, you are responsible for all Account transactions
made by that person and all of the associated Fees and Interest
Charges, except to the extent prohibited by law.

We may provide you with a personal identification number (“PIN”) for
use with certain types of Card transactions. The PIN may be required
to obtain Cash Advances from certain automated teller machines, or
to make Purchases from certain types of merchants at point of sale
devices, if the Payment Card Network shown on your Card is the same
as the one shown on these machines and devices. You should keep
your PIN secure and not write it down, give it to anyone else, or keep
it with your Card. You must contact us immediately if you lose your
Card and believe someone has gained unauthorized access to your
PIN.
We reserve the right to not allow specific Account transactions, to
suspend Account use, or to close the Account, at any time, for any
reason, and without advance notice, unless we are expressly required
by law to notify you and wait any period of time before taking these
actions. We may limit the combined dollar amount or the total
number of certain Account transactions, such as Cash Advances, that
are allowed during a single day or other time periods. We may restrict
your Account transactions and the availability of your Account credit,
to protect you and us against potential fraud, unauthorized
transactions, Account misconduct or misuse, or for our risk
management and business reasons. From time to time, Account
services may be unavailable to you and your Authorized Users, due to
circumstances beyond our control, such as system failures, fires,
floods, natural disasters or other unpredictable events. If any of these
events happens, we will not be responsible or liable to you.
You agree not to use, try to use, or permit use of a Card or the
Account for any Internet gambling transactions or any other
transactions that are illegal or not permitted by us. If this happens,
you must still pay us for these transactions and they remain subject to
all other terms of our Agreement. You must reimburse us and the
Payment Card Network for all damages and expenses associated with
these transactions. You may not use the Account to conduct
transactions in any country or territory, or with any individual or
entity, that is the subject of economic sanctions that are enforced and
administered by the Office of Foreign Assets Control (“OFAC”) in the
U.S. Department of the Treasury. We may block use of the Card and
Account in these countries and territories or with these individuals or
entities.
5.

Authorized Users

We may limit an Authorized User’s ability to initiate certain Account
transactions. If we do, we will tell you about these limitations before
we add any new Authorized User on your Account. You are
responsible for any use of a Card or the Account by each Authorized
User, as well as anyone else you or they allow to use your Account or
a Card. This will be true, even if you did not want or agree to the use.
If you want to remove an Authorized User from the Account, you must
contact us at the customer service telephone number or address
shown on your most recent Statement and request their removal. You
agree that we have a reasonable amount of time after your request to
research your Account information and remove an Authorized User.
May 2013

1|P a g e

You must immediately destroy all Cards in the Authorized User’s
possession and cancel all of their billing arrangements to the Account.
We will not do this for you. During this time, you are still responsible
for paying all amounts they may charge to the Account, even if these
amounts do not appear on the Account until later. An Authorized User
may remove themselves from the Account at any time, upon request.
We may close your existing Account, or issue a new Card with a new
Account number, after an Authorized User is removed.
6.

Statements and Billing Cycles

The documents or information your Statement includes after each
Billing Cycle will disclose important information about your Account,
including your Account transactions in each Balance Category,
Account payments, Fees, Interest Charges, unpaid Account balances,
and payment requirements. The amount of time between your
regular Statements is generally equal (approximately 30 days), but
may vary slightly in length from Billing Cycle to Billing Cycle. Your first
Billing Cycle may be more or less than 30 days. You must pay any
Minimum Interest Charge and any Fees due after your first Billing
Cycle, even if it is for a period less than 30 days. Your Statements
disclose the specific length of each Billing Cycle. Your Account will
continue to have Billing Cycles, even if a Statement is not required
after any Billing Cycle. We will send a single Statement to one of you
for all Cards on your Account, except when the law does not require
or permit us to send a Statement to any of you. You agree that we
may send Statements to the first one of you named in our Account
records, unless we agree or decide to change this after the Account is
opened.
7.

Disputed Transactions; Lost or Stolen Cards; Unauthorized Use

You must promptly inspect each Statement you receive and tell us
about any errors or questions you have, as described in the “Billing
Rights” section of your Statement and this Agreement. If you do not
notify us as provided in these disclosures, you agree that we may
assume that all information in the Statement is correct. You must take
reasonable steps to prevent the unauthorized use of your Card and
Account. If you notice the loss or theft of your Card, or a possible
unauthorized use of your Card, you should write to us immediately at
the address provided on your Statement or call us at the telephone
number provided on your Statement. You will not be liable for any
unauthorized use that occurs after you notify us. You may, however,
be liable for unauthorized use that occurs before your notice to us. In
any case, your liability will not exceed $50 (or any lesser amount
required by law or as provided under the express terms of a benefit
provided by a Payment Card Network). If we reimburse your Account
for unauthorized charges made using your Card, you agree to help us
investigate, pursue and obtain reimbursement from the wrongdoer.
Your help includes giving us documents that we reasonably request, in
a form that is acceptable to us.
8.

Credit Limits

We will disclose information about the credit limits that apply to your
Account when we open it. Your Statements will also disclose
information about your Account credit limit. We may assign different
credit limits for the different Balance Categories of your Account. For
example, the credit limit we assign for Cash Advances, Balance
Transfers, or Promotional Offers may be lower than your credit limit
for Purchases or the overall credit limit of your Account. We may
raise, lower, restrict, or cancel the credit limit that applies to any
Balance Category or the Account itself at any time and for any reason,
subject to any notices that are required by law. This will not affect
your obligation to pay us. You must keep track of your Account
balances and available credit. You agree not to allow your Account to
go over any credit limit. We may honor transactions above your credit
limits, but, if we do, this will not increase your credit limit and you
must pay us the full amount of these transactions.
9.

Balance Transfers

We may allow you to transfer balances to the Account that you owe
to other creditors or financial institutions, subject to any minimum
Balance Transfer amount we disclose and any credit limit amount we
make available for Balance Transfers. You may not ask us to process a
Balance Transfer for any amount you already owe to us, unless we
give you our express permission to do so. All Balance Transfers are
subject to our approval. We will not process a Balance Transfer
request we consider incomplete or illegible. You may use only the
devices and methods we have approved for Balance Transfers. If we
do not approve the full amount of any Balance Transfer you request,
we may process part of the amount you request as a Balance Transfer
or decline the entire request. We are not liable to you if we do not
process part or all of any Balance Transfer you request. We may make
Balance Transfers in any order we choose.
You agree not to request a Balance Transfer for any amount that is or
may be the subject of any dispute between you and any other creditor
or financial institution. If you do, you understand this may prevent you
from exercising your dispute rights against other creditors and
financial institutions. We are not liable to you for disputes you may
have with other creditors and financial institutions. If you request a
Balance Transfer, you agree to monitor your other accounts and
continue making the minimum payments due on these accounts, until
your other creditor or financial institution provides an account
statement that shows the balance of your other account has been
paid in full. This may not happen until after the Balance Transfer
appears on a Statement from us. You are liable for any late payments,
finance charges or disputed amounts on your other accounts. If you
want your other accounts closed following a balance transfer, you
must instruct your other creditor or financial institution to do so. We
will not do this for you.
10. Interest Charges
We will charge Interest Charges to your Account as described in the
Agreement, including your Account Opening Disclosures and
Statements.

The Account Opening Disclosures provide important information
about the Interest Charges that apply to your Account. Your Account
Opening Disclosures describe your Minimum Interest Charges, the
Annual Percentage Rates (“APR”) and corresponding Daily Periodic
Rates for each Balance Category, and which APRs may vary from
Billing Cycle to Billing Cycle based on changes to a published index
rate. Your Account Opening Disclosures also identify the index rate,
and the margins we add to that index rate, when we determine any
variable APRs for your Account.
We calculate the Interest Charges on your Account by applying a Daily
Periodic Rate to the “Average Daily Balance” of each Balance Category
in your Account. We multiply the results for each Balance Category by
the number of days in the Billing Cycle. This gives us the total Interest
Charges for that Billing Cycle.
The “Daily Periodic Rate” is a daily interest rate. The Daily Periodic
Rate for a given Balance Category is equal to the Annual Percentage
Rate for that Balance Category divided by 365.
We calculate the “Average Daily Balance” for each Balance Category.
We do this by starting with the beginning amount of that Balance
Category for each day, including any billed and unpaid Account
transactions, Interest Charges and Fees for that Balance Category. We
add any new Account transactions, Fees, and debits for that day, and
subtract any payments and credits. This gives us the “Daily Balance”
for each Balance Category. We calculate the “Average Daily Balance”
for each Balance Category by adding all the Daily Balances for each
day in the Billing Cycle, and then dividing by the total number of days
in the Billing Cycle. This gives us the Average Daily Balance for each
Balance Category (including current transactions).
If you must pay a Fee for a specific type of Account transaction, we
will add these Fees on the same day and to the same Daily Balance as
the Account transaction. These types of Fees include Cash Advance
Fees, Balance Transfer Fees, and Foreign Transaction Fees for
Purchases and Cash Advances. If you must pay a Fee that is not for a
specific type of Account transaction, we add these Fees to the Daily
Balance of Purchases that are subject to the standard APR as of the
day you incur the Fee or the last day of the Billing Cycle during which
you incurred the Fee. These types of Fees include Late Payment Fees,
Returned Payment Fees, Copy Fees, Card Replacement Fees, and Rush
Card Fees.
If you pay the New Balance in full after each Billing Cycle by the due
date shown on the Statement for that Billing Cycle, we will not make
you pay Interest Charges on the Purchases made during the Billing
Cycle shown on that Statement. This is called a grace period. If you do
not take advantage of the grace period, we will charge Interest
Charges starting on the day you made the Purchase. If you do not pay
the full New Balance after any Billing Cycle by the due date shown on
the Statement for that Billing Cycle, you will lose your grace period
until you pay your full New Balance on time for two months in a row.
You must pay Interest Charges on Cash Advances and on Balance
Transfers from the date you obtain them, because there is no grace

May 2013

2|P a g e

period for Cash Advances or Balance Transfers. You must pay Interest
Charges on Promotional Offers from the date we disclose when we
make the Promotional Offer. We may describe these Promotional
Offers in your Account Opening Disclosures and other written
materials we provide when opening your Account. After opening your
Account, we will describe these Promotional Offers in your Statement
or other promotional materials we may provide from time to time.
You must pay Interest Charges on each unpaid amount until it is paid
in full. Interest Charges are added to the proper Balance Category of
your Account.
11. Fees
You promise to pay the following Fees that we charge to your
Account, in the amounts shown on your Account Opening Disclosures
or this section of the Agreement.
Cash Advance Fee: Each time you obtain a Cash Advance, we will
charge the Cash Advance Fee shown in your Account Opening
Disclosures.
Balance Transfer Fee: Each time you obtain a Balance Transfer, we will
charge the Balance Transfer Fee shown in your Account Opening
Disclosures.
Foreign Transaction Fee: Each time you make a Purchase or obtain a
Cash Advance in a currency other than U.S. dollars or in a country
outside the United States, we will charge the Foreign Transaction Fee
shown in your Account Opening Disclosures.
Late Payment Fee: If you do not pay at least the Minimum Payment by
its due date, we will charge a Late Payment Fee of $25 to your
Account. If you are late more than once in a six month period, the
amount of your Late Payment Fee will increase to $35. If you make
on‐time payments for six months, the Late Payment Fee will return to
$25.
Returned Payment Fee: If any form of Account payment is not paid for
any reason by your depository institution or financial services
provider, we will charge a Returned Payment Fee of $25 to your
Account. We may charge this Returned Payment Fee if an Account
payment is returned unpaid by your depository institution or financial
services provider, even if that institution or provider later allows this
payment. If an Account payment is returned unpaid more than once in
a six month period, the amount of your Returned Payment Fee will
increase to $35. If none of your Account payments are returned
unpaid for six months, the Returned Payment Fee will return to $25.
Rush Card Fee: If you ask us to expedite our delivery of a Card when
we open your Account or at any time after that, we will charge a Rush
Card Fee of $30 to your Account.
Card Replacement Fee: If you ask us to issue a Card as a replacement
for a lost or stolen Card, we may charge a Card Replacement Fee of
$30 to your Account.
Copy Fee: We may charge you a Copy Fee of $6.00 to your Account for
each copy of a transaction document or a Statement you request,
unless they are required to resolve a billing dispute.

12. Transactions Made in Foreign Currencies
If an Account transaction is in a foreign currency, the Payment Card
Network (such as Visa U.S.A. Inc or MasterCard International) will
convert the transaction into U.S. dollars. The Payment Card Network
will use its own currency conversion procedures that are in effect
when the Payment Card Network processes the transaction. The
exchange rate used by the Payment Card Network may be a
government‐mandated exchange rate or may be based on a range of
rates available in the wholesale currency markets as of the processing
date (which may be different from the rate the Payment Card
Network receives). The conversion rate that is in effect on the
processing date may be different than the rate that is in effect on the
transaction or posting date.
13. Minimum Payments
As of the last day of each Billing Cycle, we will determine the
Minimum Payment due for your Account and disclose it on your
Statement for that Billing Cycle. The Minimum Payment you must pay
by the due date after each Billing Cycle will include all past due and
overlimit amounts for your Account, plus the greater of: (a) $25.00 or
any lesser amount that would pay the New Balance in full; (b) 2.0% of
the New Balance; or (c) 1.0% of the New Balance, plus all Interest
Charges and Fees due for the Billing Cycle shown on your Statement.
We may round the Minimum Payment up to the nearest whole dollar
amount. We may also require you to make immediate payment of
your entire New Balance if an event of default occurs as described in
the Agreement. To avoid a Late Payment Fee, you must pay us at least
this Minimum Payment by the due date shown on the Statement. In
addition to the Minimum Payment, you may pay all or part of the total
balance of your Account at any time. You must still pay at least the
Minimum Payment after each Billing Cycle, even if you paid more than
the Minimum Payment due for any previous Billing Cycle.
14. Making Payments
Your payments to us must be in U.S. dollars from a U.S. deposit
account and must otherwise be acceptable to us. We do not accept
cash payments through the mail. You may not make Account
payments with funds borrowed from your Account or any other credit
account with us. You agree to follow the payment requirements we
disclose on Statements from time to time. Any in‐person payment
that we accept from you at one of our branch offices before its closing
time will be credited to your Account on the day we receive it. Any
payment method that we promote, such as payments you authorize
by electronic fund transfer, will be credited to your Account on the
day we receive it. Mailed payments must be mailed to us at the
address for payments shown on your Statement, unless we expressly
instruct you to make payments at a different address. A mailed
payment will be credited to your Account on the day we receive it, if
you send the payment coupon from your Statement in the same
envelope with your payment or you include your Account number on
your payment, and your payment arrives at the address we specify no

later than the due date indicated on your Statement. If your due date
falls on a day when we do not receive payments, any payment we
receive the next day that conforms to these payment requirements
will not be treated as late. Please allow at least five (5) days for postal
delivery. Unless we or our agents specifically instruct you to make
payment in a different manner, payments received at any other
location or in any other form may not be credited for up to five (5)
days. This may cause you to be charged Late Payment Fees and
additional Interest Charges. We may refuse to accept any payment
made by someone else for your Account. If we accept a payment
made by someone else for your Account, you will be responsible for
the payment made, even if that payment is rejected or not paid.
15. How We Apply Your Payments
We apply your payment of a Minimum Payment to the Balance
Categories with lower Annual Percentage Rates before the Balance
Categories with higher Annual Percentage Rates. We apply any
portion of a payment that exceeds your Minimum Payment to the
Balance Categories with higher Annual Percentage Rates before the
Balance Categories with lower Annual Percentage Rates, except as
otherwise required by law.
16. Payment Processing; Items with Restrictive Conditions or
Instructions
We may accept and process payments without losing any of our
rights. Even if we apply a payment to your Account, we may delay the
availability of credit in your Account until we confirm your payment
has cleared. We may resubmit and electronically collect returned
payments. We may also adjust your Account as necessary to correct
errors, to process returned and reversed payments, and to handle
similar issues.
An “Item” means a check, draft, money order or other negotiable
instrument you use to pay your Account. This includes any image of
these instruments. When you provide an Item as payment, you
authorize us either to use information from your Item to make a one
time electronic fund transfer from your deposit account or to process
the payment as a check transaction. When we use information from
your Item to make an electronic funds transfer, funds may be
withdrawn from your deposit account as soon as the same day your
payment is received and you will not receive your Item back from your
financial institution. You may contact us and ask that we not process
your future Items in this way. If we process the payment as a check
transaction, you understand and agree that we may convert your Item
into an electronic image that can be collected from your depository
institution as a substitute check. We will not be responsible if an Item
you provide has physical features that, when imaged, result in it not
being processed as you intended.
Any Item that has restrictive words, conditions, limitations or special
instructions (including Items marked with the words “Paid in Full” or
similar language), and all accompanying communications, must be
May 2013

3|P a g e

mailed to us at Pinnacle Bank, 214 West College Street,
Murfreesboro TN 37130, attention: Cardmember Services. If you
make your payment or send any accompanying communications to
any other address, we may accept and process the payment, without
losing any of our rights.

(F) exercise any rights and remedies that the law allows to creditors
following a default, which includes to filing of a lawsuit against you.
You agree to pay us all of our collection expenses to the extent
permitted by applicable law, including but not limited to reasonable
attorney’s fees that we incur after referring your Account to an
attorney who is not our salaried employee.

17. Credit Balances
19. Communications
We may reject and return to you any payment that creates a credit
balance on your Account. Any credit balance we allow will not be
available until we confirm that your payment has cleared. If we allow
a credit balance after receiving a payment that exceeds the New
Balance, this will not increase the credit limit of your Account and we
will have no duty to authorize Account transactions that would exceed
your Account’s credit limit. We may, at our option, reduce the amount
of any credit balance by any new amounts billed to your Account. You
may contact us as provided on your Statement and request a refund
of any available credit balance. If you contact us in writing, we will
refund your credit balance within seven (7) business days from our
receipt of your written request. A business day means any day in
which our offices are open for the processing of Account payments
and credits.
18. Account Default and Remedies
We may consider you in default of your Agreement with us if:
(1) you do not make at least the Minimum Payment due after a Billing
Cycle by its due date;
(2) any payment you make or attempt is rejected, not paid or cannot
be processed;
(3) you exceed an assigned credit limit;
(4) a bankruptcy or other insolvency proceeding is filed by or against
you;
(5) you die or are legally declared incompetent or incapacitated;
(6) we determine that you made a false, incomplete or misleading
statement on any of your Account documentation, or you otherwise
tried to defraud us;
(7) you do not comply with any term of this Agreement or any other
agreement with us; or
(8) you permanently reside outside the United States.
Paying the Interest Charges and Fees charged in connection with a
default will not, by itself, cure the default. Unless the law requires us
to notify you and wait before we may take action, you understand and
agree that we may, after any event of default and without advance
notice to you, take any one or more of the following actions:
(A) close or suspend your Account;
(B) lower your credit limits;
(C) increase your Minimum Payment;
(D) demand that you immediately pay the entire balance owing on
your Account;
(E) continue to charge you Interest Charges and Fees as long as your
balances remain outstanding; and/or

You expressly authorize us and our agents and service providers to
use any available written, electronic, or verbal means of contacting
you for any purpose related to the servicing and collection of your
Account and for any other informational purpose related to your
Account (each, a “Communication”). You agree this authorization for
Communications includes, but is not limited to, our use of manual
calling methods, prerecorded or artificial voice messages, text
messages, e‐mail messages, and/or automatic telephone dialing
systems. You agree that we and our agents and service providers may
contact you for these Communications using any e‐mail address or
telephone number you provide, including a number for a cellular
telephone or other wireless device, regardless of any charges you may
incur as a result. We will not charge you for making a Communication,
but your service provider may. You agree that we and our agents and
service providers may monitor and record telephone calls about your
credit card account to assure service quality or for other legitimate
business reasons. You understand and agree that we and our agents
and service providers may always communicate with you in any
manner permitted by law that does not require your prior consent.
20. Credit Reports
We may provide information about you and the Account to consumer
credit reporting agencies. We may also provide information about you
and the Account to others as described in our privacy notices.
Information we provide about the Account may appear on credit
reports about you and Authorized Users. This could include negative
information, if you do not comply with the terms of this Agreement.
We may obtain and use credit and income information about you
from consumer credit reporting agencies and others, as the law
allows.
If you believe we have reported inaccurate information about you to
a credit reporting agency, notify us in writing at: Pinnacle Bank,
P.O. Box 332509, Murfreesboro, TN 37133, attention: Cardmember
Services In doing so, identify yourself, your Account, the information
you believe is inaccurate, and tell us why you believe the information
is incorrect. If you have supporting documents or information, such as
a copy of a credit report that includes information you believe is
inaccurate, please send us the supporting documents and
information, too.
21. Closing or Suspending Your Account

You may ask us to close your Account by calling or writing us at the
address for customer service as described on your Statement. If you
do, we may provide you with additional details about this process and
request certain information from you, including payment information.
If a Card is used or charges post to your Account after you ask us to
close it, we may keep your Account open or reopen it. We may close
or suspend your Account and your right to obtain credit from us. We
may do this at any time and for any reason, as permitted by law, even
if you are not in default. A suspension of your Account might be
permanent or temporary. If your Account is closed or suspended for
any reason, you and all Authorized users must stop using your Card
immediately. You must also cancel all recurring charges or similar
billing arrangements connected with the Account. We will not do this
for you. If we close or permanently suspend your Account, you must
also destroy all Cards. You must still pay us all amounts you owe on
the Account, even if these amounts are charged after your Account is
closed or suspended.
22. Changes to Your Agreement
You may not change the Agreement, unless one of our authorized
officers expressly agrees to do so in a signed writing. We may, at any
time, add, delete or change any term of this Agreement, unless the
law prohibits us from doing so. We will give you any notice and wait
any time period that the law requires before changing the Agreement
and Account terms. If we notify you of changes, we will send you a
separate notice or inform you on your Statement. We may send this
notice to you electronically, as permitted by law. Our notice will tell
you when and how the changes will take effect and describe any
rights you have in connection with the changes. You understand that
any variable APRs associated with your Account can increase or
decrease in each Billing Cycle, as the published index for these rates
goes up or down. If we increase your Interest Charges for any other
reason, we will notify you in advance and inform you of your options,
including any right to reject these changes. If we increase your Fees or
change other significant Account terms, we will also notify you in
writing and inform you of your options, including any right to reject
these changes. After the first year of the Account, we may increase
your Fees and the Interest Charges for new Account transactions. We
may change any other terms of your Account at any time, after we
give you any notice and wait any time period required by law.
23. The Law that Applies to Your Agreement; Statute of Limitations
We make decisions to grant credit, open Accounts, and issue Cards
from our offices in Tennessee. The interpretation and enforcement of
this Agreement (including the exportation of interest) shall be
governed by Tennessee law and, to the extent federal law applies,
federal law, without regard to conflict of law principles. If any part of
this Agreement is found to be unenforceable or invalid, the remaining
parts will remain in effect. You waive any applicable statute of
limitations, to the extent allowed by law. If the law does not allow the
waiver of any applicable statute of limitations, you agree that the
statute of limitations period for all purposes of this Agreement
May 2013

4|P a g e

(including the right to collect debt) will be the longer of the limitation
period provided under Tennessee law or the limitation period under
the law of the jurisdiction where you live.
24. Waiver
We will not lose any of our rights if we delay taking any action for any
reason or if we do not notify you. For example, we may waive your
Interest Charges or Fees without notifying you and without losing our
right to charge them in the future. We may always enforce our rights
later and may take other actions not listed in this Agreement if the
law allows them. You do not have to receive notice from us of any
waiver, delay, demand or dishonor. We may proceed against you
before proceeding against someone else.
25. Assignment
This Agreement will be binding on, and benefit, any of your and our
successors and assigns. You may not transfer your Account or your
Agreement to someone else without our written permission. We may
transfer your Account, our rights and responsibilities under this
Agreement, and/or the unpaid balances of your Account to another
company or person at any time, without your permission and without
advance notice to you. If this happens, any such company or person
will take our place under this Agreement. You must pay them and
perform all of your obligations to them and not us. If you pay us after
you are informed or learn that we have transferred your Account or
this Agreement, we can handle your payment in any way we think is
reasonable. This includes returning the payment to you or forwarding
the payment to the other company or person.
26. Warranties; Merchant Refunds
We make no warranties to you about any goods or services you may
purchase from others using your Account or Card. Except as otherwise
provided in the “Billing Rights” section below, we are not responsible
to you for any claim you may have related to the goods or services
you purchase with a Card. If you are entitled to a refund for goods and
services you purchased with a Card, you agree that we may process
these refunds as credits to the Balance Category for Purchases. You
understand and agree that we have no control over when a merchant
initiates a refund. You agree that we have a reasonable amount of
time after we receive your refund to process it.
27. Arbitration
(A) Mandatory Arbitration of Disputes: The “Arbitration Contract”
means the provisions of this Section 27. In the Arbitration Contract, a
“Party” means you, any Authorized User, or us (individually) and the
“Parties” includes you, all Authorized Users, and us (as a group). Any
“Dispute” must, at the election of either Party, be resolved by a
neutral, binding arbitration and not by a court of law, unless the
Agreement states otherwise. A “Dispute” means any action, dispute,
claim or controversy of any kind that is in any way related to: (i) the

marketing, origination, servicing, collecting, or reporting of the
Account ; (ii) any part or all of the Agreement, including its Arbitration
Contract and the arbitrability of any issue, except that only an
appropriate court is allowed, if necessary, to determine whether you
or we waived any right to bring or participate in a class action under
sub‐paragraph (E); or (iii) any other aspect of your or our past,
present, or future relationship or conduct.
(B) Facts About Arbitration: Arbitration is a process in which a
neutral arbitrator decides a dispute, instead of a judge or jury.
Arbitration proceedings are private and less formal than court trials.
Each side has an opportunity to present some evidence to the
arbitrator. Your ability and our ability to discover details may be
limited. Other rights that the Parties might have in court may not be
available in arbitration. An arbitrator issues an award. A court may
then enforce the arbitrator’s award like a court judgment. A court
rarely overturns an arbitrator’s decision.
(C) Rules: A Party must give every other Party written notice of any
Dispute. Notice of a Dispute must be sent to us by first class mail at the
address we provided for billing errors on your most recent Statement.
Notice of a Dispute must be sent to you by first class mail at the most
recent mailing address we maintain for you in our business records. If a
Party elects to have a Dispute resolved by arbitration, that Party’s notice
to the other Party must describe the nature and factual basis of the
Dispute, the names and addresses of all other Parties, the amount
involved, and the specific relief requested. The Party that responds to
such a notice may answer and set forth any counterclaims. The
arbitration will be conducted by one neutral and impartial arbitrator
mutually agreed upon by the Parties. The arbitrator must be an
attorney or a retired judge. If the Parties cannot agree on an
arbitrator, the Parties agree that a court may appoint an arbitrator in
accordance with the Federal Arbitration Act (9 U.S.C. §1 et seq.; the
“FAA”). The arbitration must be conducted in the federal judicial
district where you live at the time of the arbitration, unless the
Parties agree to have the arbitration conducted in another
location. The arbitrator may conduct all necessary preliminary
proceedings, provide for the exchange of information and/or
discovery, and set the time, date and place of any hearing, after
reasonable notice to and consultation with the Parties. The award
shall be issued without a written opinion no later than 30 days from the
date any hearing is completed.
(D) Standards and Law: The Parties agree that the Agreement and
the Account involve interstate commerce and that this Arbitration
Contract is governed by the FAA. The arbitrator shall apply applicable
substantive law, statutes of limitation, and honor claims of privilege
that are recognized by law. Judgment based on any arbitrator’s award
may be entered by any court with competent jurisdiction.
(E) Class Action Waiver: The Parties agree to give up: (i) any right
they may have to bring a class action lawsuit or class arbitration, or to
participate in a class action lawsuit or class arbitration as a claimant;
(ii) any right to consolidate or join any arbitration proceeding with the

arbitration of others; and (iii) any right to serve as a private attorney
general. If a court of competent jurisdiction determines that this sub‐
paragraph (D) is illegal, invalid, or unenforceable, the Parties agree
that this Arbitration Contract shall be void in its entirety.
(F) Jury Trial Waiver: If either Party chooses to have a Dispute
resolved by arbitration, the Parties agree that there will be no right
have that Dispute tried in any court and there will be no right to have
a jury trial of that Dispute.
(G) Fees and Costs: If you file for arbitration first, you will pay the
first $250 of the arbitrator’s fees and expenses and we will pay any
additional fees or expenses of the arbitrator. We will pay all of the
arbitrator’s fees and expenses if we file arbitration first. The Parties
shall be responsible for paying their own attorneys’ fees in connection
with any arbitration, unless otherwise allowed for under applicable
substantive law and awarded by the arbitrator.
(H) Survival of Arbitration Contract: This Arbitration Contract will
survive and continue in full force and effect, notwithstanding any
cancellation, termination, amendment, payment in full, discharge in
bankruptcy, or other expiration or conclusion of the Agreement or any
other contract or transaction between the Parties, unless otherwise
agreed in writing. In addition, you understand and agree that the
rights and responsibilities afforded to us under this Arbitration
Contract survive any assignment of the Agreement by us and that we
can enforce this Arbitration Contract in the event a Dispute arises
after the assignment of the Agreement.
(I) Severability: If it is determined that any paragraph or provision
in this Arbitration Contract is illegal, invalid, or unenforceable, such
illegality, invalidity or unenforceability shall not affect the other
paragraphs and provisions of this Arbitration Contract. The
remainder of this Arbitration Contract shall continue in full force and
effect as if the severed paragraph or provision had not been included.
Notwithstanding this severability provision, if a court of
competent jurisdiction determines sub‐paragraph (E) to be
illegal, invalid, or unenforceable, the Parties agree that such
waiver shall not be severed and that this Arbitration Contract shall be
void in its entirety.
(J) Right to Reject Arbitration: If you do not want this Arbitration
Contract to apply, you may reject it by mailing us a written notice to
Pinnacle Bank, 214 West College Street, Murfreesboro, TN 37130,
attention: Cardmember Services, that describes the Agreement and
your Account and states that you are rejecting the Arbitration
Contract. A rejection notice is effective only if it is signed by each of
you and the envelope containing any rejection notice is postmarked
no more than thirty (30) calendar days after your Account is opened.
Even if you reject this Arbitration Contract, paragraphs E and F of the
Arbitration Contract shall remain valid and effective, and will be
incorporated into the Agreement. If you reject this Arbitration
Contract, it will not affect any other provisions of the Agreement or
your obligations under the Agreement. If you do not properly reject
this Arbitration Contract, it will be effective as of the date of this
May 2013

5|P a g e

transaction.
THE PARTIES HAVE AGREED TO WAIVE THEIR RIGHT TO A TRIAL BY
JURY AND THEIR RIGHT TO PARTICIPATE IN CLASS ACTIONS.
THE TERMS OF THIS ARBITRATION CONTRACT AFFECT YOUR LEGAL
RIGHTS. IF YOU DO NOT UNDERSTAND ANY TERMS OF THIS
PROVISION, SEEK INDEPENDENT ADVICE BEFORE SIGNING THIS
AGREEMENT. BY SIGNING THIS AGREEMENT, YOU ACKNOWLEDGE
THAT YOU HAVE READ, UNDERSTAND AND AGREE TO BE BOUND BY
EACH OF THE PROVISIONS, COVENANTS, STIPULATIONS AND
CONTRACTS SET FORTH ABOVE.
28. Glossary
The “Account Opening Disclosures” are the tabular disclosures and
other disclosures we provide before you are allowed to use the
Account or a Card. These Account Opening Disclosures include
information about certain Fees that apply to your Account and the
Interest Charges that apply to the Balance Categories of your Account.
The “Balance Categories” are the different Account segments we may
establish with unique pricing, grace periods or other terms. The
Balance Categories of your Account may include Purchases, Cash
Advances, Balance Transfers, and Promotional Offers. We reserve the
right to decide which Balance Category applies for each Account
transaction and our decision will be final.
A “Balance Transfer” means a balance we allow you to transfer to the
Account from an account you owe to another financial institution or
creditor, by using any written, electronic, or telephonic device or
method we approve for this purpose.
A “Billing Cycle” is the period of time covered by each Statement we
send you.
A “Cash Advance” means a loan you obtain from us by using the Card,
convenience checks, or other forms or devices we approve for
Account access, including transactions initiated through a bank teller
or an Automated Teller Machine (ATM). A “Cash Advance” includes
your use of the Card or Account to obtain something we consider a
cash equivalent, such as wire transfers, travelers’ checks, money
orders, foreign currency, lottery tickets, gaming chips, and wagers.
“Fees” are the charges we add to your Account that are not based on
the Annual Percentage Rates.
“Interest Charges” are the charges we add to your Account based on
the Annual Percentage Rates and corresponding Daily Periodic Rates
we apply to your Account balances.
The “New Balance” is the full unpaid balance of your Account as of the
end of a Billing Cycle, which includes the billed and unpaid amounts
due for all Account transactions made in each Balance Category,
Interest Charges, and Fees.
A “Promotional Offer” means transactions and balances that post to
your Account and are subject to unique pricing, grace periods, or

other terms we disclose from time to time for promotional and other
reasons.
A “Purchase” means the property, rights, goods and services you
purchase, rent, or otherwise obtain directly from merchants and
vendors by using your Card or the Account.
29. Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the
address provided on your billing statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.

send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address provided on your billing
statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
May 2013

6|P a g e

